. i

* »

,4

•r

i

APPENDIX

SEPARATE ORDERS FROM THE LOWER
COURTS

Connecticut Superior Court LLICV166014383-S
U.S. Bank Trust, N.A. as Trustee for LSF9 Master
Trust v. O’Brien, Mark E. et al.
Summary Judgment Motion by Plaintiff denied.
6/4/2018. “There is a genuine issue of material fast as
to whether notice of default and the intent to
accelerate was properly given.” [John David Moore,
J].
Summary Judgment Motion by Plaintiff denied.
12/7/2017. “...the Plaintiff has not met his burden of
showing that is the holder of the promissory note.”
[John Pickard, J].

Order of Strict Foreclosure. 5/20/2019. [John
Pickard, J].
DOCKET NO: LLICV166014383S
U.S. BANK TRUST, N.A., AS TRUSTEE FOR LSF9
MASTER V. O'BRIEN, MARK E. Et Al
SUPERIOR COURT JUDICIAL DISTRICT OF
LITCHFIELD AT TORRINGTON 5/20/2019 ORDER

A-l

The following order is entered in the above matter:
ORDER: This case was brought by the plaintiff, U.S.
Bank Trust, N.A., as Trustee for LSF9 Master
Participation Trust, to foreclose on a mortgage
encumbering property at 114 Wetmore Avenue in
Winsted, Connecticut (“the property”). The current
defendants are Mark E. O’Brien (“Mr. O’Brien”),
Kathleen M. O’Brien, Thomas J. O’Brien, and the
State of Connecticut, Department of Revenue
Services. Mr. O’Brien has appeared on his own
behalf, but the other defendants are non-appearing.
The non-appearing defendants were defaulted for
failure on appear on February 17, 2017. The matter
was tried to the court on February 27, 2019. The
plaintiff presented testimony from witnesses and
submitted documentary evidence. Mr. O’Brien
appeared at the trial, cross examined witnesses and
was heard. The other defendants did not appear for
A-2

.

trial. The plaintiff and Mr. O’Brien submitted post­
trial briefs, the last of which was filed on March 27,
2019. The operative complaint is dated December 2,
2016. Mr. O’Brien filed an answer dated February
27, 2017 in which he admits that on December 16,
2004 Caroline S. O’Brien borrowed $50,000 from
Fleet National Bank (“Fleet”) as evidenced by a
promissory note and that, to secure the note, she
mortgaged the property to Fleet. He also admits that
Fleet merged with and into Bank of America, NA.
and that the mortgage was assigned to the plaintiff,
U.S. Bank Trust, N.A., as Trustee for LSF9 Master
Participation Trust. He denies that the plaintiff is
the party entitled to collect the debt and enforce the
mortgage. Based on military affidavits on file, the
court finds that the defendants, Kathleen M. O’Brien
and Thomas J. O’Brien, are not in the military
service of the United States. The court heard
A-3

evidence from Joseph Grella, a real estate appraiser.
Based on his testimony, the court finds that the
value of the property is $110,000. The court next
heard from Phillip Luna, an employee of Caliber
Home Loans, Inc.. Caliber is a mortgage loan servicer
which services the loan being foreclosed upon. Mr.
Luna is in charge of a portfolio of loans including this
one. The issue before the court is whether Mr. Luna’s
testimony is sufficient to prove that the plaintiff
owns the loan and is entitled to prosecute this
foreclosure. The plaintiff offered into evidence
affidavits to establish that on June 23, 2009 the
amount of the loan was increased to $119,000 and
that a new promissory note was signed by Caroline
S. O’Brien acting by her attorney in fact, Kathleen
M. O’Brien; that this promissory note was lost and
that a good faith effort has failed to locate it; that the
mortgage securing this note was duly assigned to the
A-4

plaintiff; and that the note is in default and the total
debt due to the plaintiff is $184,358.02. Despite the
defendant’s objections to these affidavits, the court
admitted them as full exhibits and will not revisit
this decision. The court finds that Mr. Luna’s
testimony is admissible and persuasive. The
arguments made by Mr. O’Brien in his memorandum
of law are rejected. Most of them rely on citations to
internet articles which were not introduced into
evidence. He makes allegations of fact which are not
based on any evidence offered or admitted at the
trial. Based on the evidence which was admitted the
court finds that the plaintiff is the party entitled to
collect the debt reflected by the lost note and is the
party entitled to enforce the mortgage. The court
finds that the note and mortgage are in default by
virtue of nonpayment of the monthly installment due
on April 28, 2011 and every month thereafter, and
A-5

that the plaintiff has exercised its option to
accelerate the loan. A comparison of the total debt
and the value of the property reveals that there is no
equity. Therefore, the LLICV166014383S 5/20/2019
Page 1 of 2 court orders a judgment of strict
foreclosure with the first law day being Monday,
August 5, 2019. The plaintiff is awarded an appraisal
fee of $450, title search fee of $225, and attorneys
fees of $2,975.
/s/ JOHN PICKARD, J

Appeal denied:
STATE OF CONNECTICUT
APPELLATECOURT
Date: Hartford, March 10, 2020
To the Chief Clerk of the Appellate Court.
The Appellate Court has decided the following case:
U.S. BANK TRUST, N.A., TRUSTEE v. MARK E.
O’BRIEN ETAL.
A-6

Opinion Per Curiam.
Docket No. AC 43004
Trial Court Docket No. LLICV166014383S
The judgment is affirmed and the case is remanded
for the purpose of setting new law days.
Alexandra D. DiPentima,
Chief Judge

Motion for Reconsideration en banc denied:
APPELLATE COURT
STATE OF CONNECTICUT
AC 43004
U.S. BANK TRUST, N.A., AS TRUSTEE FOR LSF9
MASTER PARTICIPATION TRUST v. MARK E.
O'BRIEN, ET AL.
APRIL 15, 2020
ORDER
THE MOTION OF THEDEFENDANT-APPELLANT,
FILEDMARCH 19, 2020, FOR RECONSIDERATION
EN BANC, HAVING BEEN PRESENTED TO THE
COURT, IT IS HEREBY O R D E R E DDENIED.
BY THE COURT,

/S/ SUSAN REEVE DEPUTY CLERK

A-7

Petition for certification to appeal from the
Appellate Court 196 Conn. App 903 (AC43004) is
denied. 6/10/2020:
SUPREME COURT
STATE OF CONNECTICUT
PSC-190465
U.S. BANK TRUST N.A., AS TRUSTEE FOR LSF9
MASTER PARTICIPATION TRUST v. MARK E.
O'BRIEN ET AL.
CORRECTED ORDER ON PETITION FOR
CERTIFICATION TO APPEAL
The defendant Mark E. Obrien's petition for
certification to appeal from the Appellate Court, 196
Conn App 903 (AC 43004), is denied.
Mark E. O'Brien, self-represented, in support of the
petition.
Adam L. Avallone, in opposition.
Decided June 10, 2020
By the Court,
/s/ L. Jeanne Dullea
Assistant Clerk-Appellate

Motion for Stay pending Petition for Writ of
Certiorari United States Supreme Court.
Denied. 7/31/2020:

A-8

APPELLATE COURT
STATE OF CONNECTICUT
AC 43004
U.S. BANK TRUST, N.A., AS TRUSTEE FOR LSF9
MASTER PARTICIPATION TRUST v. MARK E.
O'BRIEN ET AL.
JULY 31, 2020
ORDER
THE MOTION OF THE DEFENDANTAPPELLANT, FILED JULY 14, 2020, FOR STAY
PENDING PETITION FOR WRIT OF CERTIORARI
UNITED STATES SUPREME COURT, HAVING
BEEN PRESENTED TO THE COURT, IT IS
HEREBY ORDERED DENIED.
BY THE COURT,
/S/PETER D. KEANE
ASSISTANT CLERK-APPELLAT

A-9

*
1

